NO:

IN THE

SUPREME COURT OF THE UNITED STATES

RICHIE WHEELER,
PETITIONER,
v.
UNITED STATES OF AMERICA,

RESPONDENT.

AFFIDAVIT OF SERVICE

ROY B. GREENMAN, ESQ., a member of the Bar of the Third Circuit
Court of Appeals and appointed under the Criminal Justice Act, 18 U.S.C. §
3006A, et seq., certifies that, pursuant to the Supreme Court of the United States
Rule 29.5, he served the original of the within Petition for Writ of Certiorari and
Appendix to the United States Supreme Court and the original of the within
Motion for Leave to Proceed in Forma Pauperis by Federal Express on the Clerk of
the Supreme Court, Supreme Court Building, 1 First Street, NE, Washington, DC
20543 on January 27, 2020. At the same date and time, copies of same were

forwarded by first class mail to:
NOEL FRANCISCO, SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W, Room 5616
Washington, DC 20530-0001

PATRICIA DODSZUWEITZ, CLERK
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
21400 United States Courthouse
601 Market Street
Philadelphia, PA 19106-1790

MARK E, COYNE, A.U.S.A.
UNITED STATES ATTORNEY’S OFFICE
970 Broad Street, Room 700
Newark, New Jersey 07102

RICHIE WHEEER
Essex County Correctional Facility
354 Doremus Avenue
Newark, New Jersey 07105

I certify that the foregoing statements made by me are true. I am aware that
if any of the foregoing statements made by me are willfully false, 1 am subject to

punishment.
Respectfully submitted,

ROY B. GREENMAN, ESQ. #010631974
BUDIN, GREENMAN & GREENMAN
Attorneys for Defendant

1379 Morris Avenue

Union, New Jersey 07083

(908) 688-6444

Rbg648@aol.com

CJA Counsel for Petitioner—Richie Wheeler
